                                                                         ~l'"   --.,.   -~.,




                       --    ~--   "-~~-   --




                                                             NATIONAL SCIENCE FOUNDATION
                                                              OFFICE OF INSPECTOR GENERAL
                                                                OFFICE OF INVESTIGATIONS

                                                       CLOSEOUT MEMORANDUM

                                                                                                  Page 1 of 1,
    Case Number: A06070031



                    An awardee institutionl notified us that it had completed an inquiry and was moving into an
            investigation of allegations that a graduate student2 had falsified'data in several projects conducted
            with federal funding which included NSF awards. 3 The graduate student admitted to falsifying data
            during the inquiry. We reviewed the institution's inquiry and referred an investigation to the
            institution to obtain a full assessment of the breadth of the falsification involving NSF funds. The
            institution completed its investigation finding falsification in 3 published articles and 2 unpublished
             manuscripts,4 and rescinding the graduate student's masters degree
                              5


                     The attached report of investigation and the letters of the Deputy Director summarize the
             details of this investigation.

             Accordingly, this case is closed.




(




             5   The man.u~cripts included a submitted review article.




    NSF OIG Form 2 (11102)
    ',        '. _ 'l.:    ,
         '1    ~          ..~.
/

                                                                  NATIONAL SCIENCE FOUNDATION
                                                                      4201 WILSON BOULEVARD
                                                                     ARUNGTON, VIRGINIA 22230




                                    OFFICE OF THE
                                   DEPUTY DIRECTOR




                                 CERTIFIED MAIL --RETURN RECEIPT REQUESTED




                                        Re: Debarment



                                 ,On                    , the National Science Foundation ("NSF") issued your client,
                                           , a Notice of Proposed Debannent in which NSF proposed to debar her [Tom directly or
                                 indirectly obtaining the benefits of Federal grants for a period of three years. The Notice sets
                                 forth in detail the circumstances giving rise to NSF's decision to propose her debannent.
                                 Specifically, NSF indicated in the Notice that the proposed debannent is based }lpon
                                              falsification of data in several journal articles and manuscripts. In that Notice, NSF
                                 provided her with thilty days to respond to the proposed debannent.

                                 Over thirty days have elapsed and NSF has not received a response. Accordingly,
                                 is debarred until                 . Debannent precludes her from receiving Federal financial
                                 and non-financial assistance and benefits under non-procurement Federal programs and activities
                                 unless an agency head or authorized designee makes a detennination to grant an exception in
                                 accordance with 2 CFR Section 180.135. Non-procurement transactions include grants,
                                 cooperative agreements, scholarships, fellowships, contracts of assistance, loans, loan guarantees,
                                 subsidies, insurance, payments for specified use, and donation agTeements.

                                 In addition,              is prohibited from receiving Federal contracts or approved
                                 subcontracts under the Federal Acquisition Regulations ("FAR") at 48 CFR Subpart 9.4 for the
                                 period of this debannent. 2 CFR Section 180.140. During the debannent period, she may not
                                 have supervisory responsibility, primary management, substantive control over, or cr.itical
influence on, a grant, contract, or cooperative agreement with any agency of the Executive
Branch of the Federal Government

Lastly, please note that, in the Notice of Proposed Debannent, NSF also took the following
actions against                  which continue to remain in effect:

   • 	 By                                  is required to complete a research ethics course
       covering the proper handling and reporting of data, and must certify to NSF's Office of
       Inspector General ("OIG") that she has done so.

   • 	 By                                 was required to have requested a retraction or
       correction to the published work which NSF supported.                    was also required
       to certify to the OIG that she had done so.

   • 	 From the end of her debarment peri.od through                                     is
       required to tertify to the OIG that any proposals, reports, or papers she submits in
       connection with NSF-funded research do not contain plagiarized, falsified or fabricated
                                                                                  j

       materiaL

   • 	 From the end of her debannent period through                                    is
       required to submit to the OIG assurances by a responsible official of her employer that
       any proposals or reports she submits in connection with NSF-funded research do not
       contain plagiarized, falsified, or fabricated material.

   •	                is prohibited from serving as a reviewer of NSF proposals until



If you have any questions regarding the foregoing, please contact         Assistant General
Counsel, National Science Foundation, Office o[the General Counsel, 4201 Wilson Boulevard,
Room 1265, Arlington, Virginia, 22230.                  .



                                                    Sincerely,

                                       \.           ~fl·dt~
                                                    Cora 13. Marrett
                                                    Acting Deputy Director
                                NATIONAL SCIENCE FOUNDATION
                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGINIA 22230




   OFFICE OF THE
  DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re:
             Notice ofProposed Debarment and Notice ofResearch Misconduct Determination

De~

As documented in the attached investigative report prepared by the National Science
Foundation's ("NSF") Office of Inspector General ("OIG'1, your client,
            intentionally falsified data in severaljoumal articles and manuscripts. In light ofher
misconduct, this letter serves as formal notice that the National Science Foundation ("NSF") is
proposing to debar                   from directly or indirectly obtaining the benefits of Federal
grants for a period of three years. During her period of debarment, she will be precluded from
receiving Federal financial and non-financial assistance and benefits under non-procurement
Federal programs and activities. In addition, she will be prohibited from receiving any Federal
contracts or approved subcontracts under the Federal Acquisition Regulations ("FAR"). Lastly,
<during her debarment period, she will be barred from having supervisory responsibility, primary
management, substantive control over, or critical influence on, a grant, contract, <;>r cooperative
agreement with any agency of the Executive Branch of the Federal Government:

In addition to proposing her debannent, I am taking additional administrative actions against her
in accordance with 45 CFR Part 689. These actions are set forth on page 3 of this Notice.



Research Misconduct and Sanctions other than Debarment

Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
plagiarism in proposing or performing research funded by NSF ..." 45 CFR 689.1 (a). NSF
defines "falsification" as "manipulating research materials, equipment, or processes, or changing
                                                                                               Page 2
or omitting data or results such that the research is not accurately represented in the research
record." 45 CFR 689.1(a)(2). A finding of research misconduct requires that:

        (1) 	There be a significant departure from ~cepted' practices of the relevant research
            community; and
        (2) The research misconduct be committed intentionally, 	or lmowingly, or recklessly;
            and
        (3) The allegation be proven by a preponderance of evidence.

45 CFR 689.2(c).

As the OIG's report demonstrates,                  falsified data in several journal articles and
manuscripts.                admitted to engaging in this misconduct. Thus, her conduct
unquestionably constitutes falsification. I therefore conclude that her actions meet the applicable
definition of"research misconduct" set forth in NSF's regulationS.

Pursuant to NSF's 'regulations, the Foundation must also determine whether to make afinding of
misconduct based on a preponderance of the evidence. 45 CFR 689.2(c). After reviewing the
Investigative Report, NSF has determined that, based on a preponderance of the evidence, her
misconduct was committed intentionally and purposefully, and constituted a significant
departure from accepted practices of the relevant research community. I am, therefore, issuing a
finding of research misconduct against

NSF's regulations establish three categories of actions (Group I, IT, and III) that can   be taken in
response to a fmding ofn:;ri.sconduct. 45 CFR689.3(a). Group I actions include issuing a letter
of reprimand; conditioIting awards on prior approval ofparticular activities from NSF; requiring
that an institution or individual obtain special prior approval of particular activities from NSF;
and requiring that an institutional representative certify as to the accuracy of reports or
certifications of compliance with particular requirements. 45 CFR 689.3(a)(1). Group IT actions
include award suspension or restrictions on designated activities or expenditures; requiring
special reviews of requests for funding; and requiring correction to the research record. 45 CFR
689.3(a}(2). Group III actions include suspension or termination of awards; prohibitions on
participation as NSF reviewers, advisors or consultants; and debarment or suspension from
partiCipation in NSF programs. 45 CFR 689.3(a)(3).

 In determining the seventy of the sanction to impose for research misconduct, I have considered
 the seriousness of the misconduct; the determination that it was committed intentionally and
.purposefully; the determination that it was part of a pattern of misconduct; and the fact that her
 conduct had an impact on the published research record. I have also considered the fact that
            cooperated with the University's investigation ofthis matter, and has displayed
 contrition throughout the investigative process. I have also considered all other relevant
 circumstances. 45 CFR 689.3(b).
                                                                                               Page 3
Based upon the foregoing, I take the following actions:

   • 	 By                                   is required to complete a research ethics course
       covering the proper handling and reporting of data. She must certify to the DIG that she
       has done so. Such certification should be sent to the Associate Inspector General for
       Investigations, Office of Inspector General, National Science Foundation, 4201 Wilson
       Boulevard, Arlington, VA 22230.

   • 	 By                                  is required to request a retraction or correction to the
       published work which NSF supported, and certify to the DIG that she has done so. Such
       certification should be sent to the Associate Inspector General for Investigations, Office
       of Inspector General, National Science Foundation, 4201 Wilson Boulevard, Arlington,
       VA 22230.

   • 	 For three years from the end                     debarment period, she is required to
       certify to NSF that any proposals, reports, or papers she submits in connection with NSF-
       funded research do not contain plagiarized, falsified, or fabricated material.

   • 	 For three years from the end                   debarment period, she is required to
       submit to NSF assurances by a responsible official of her employer that any proposals or
       reports she submits in connection with NSF-funded research do not contain plagiarized,
       falsified, or fabricated material.

   •	                    is prohibited from serving as a reviewer of NSF proposals until




Debarment

Regulatory Basis for Debarment

Pursuant to 2 CFR 180.800, debarment may be imposed for: .

        (b) 	     Violation of the terms of a public agreement or transaction so serous as to affect
                , the integrity of an agency program, such as

                 (1) 	   A willful failure to perform in accordance with the terms of one or more
                         public agreements or transactions; or


                 (3) 	   A willful violation of a statutory or regulatory provision or requirement
                         applicable to a public agreement or transaction;
            "-t,

;:',;f,_"          '&




                                                                                                                   Page 4




                            (d) 	   Any other cause of so serious or compelling a nature that it affects your present
                                    responsibility.

                    In any debarment action, the government must establish the cause for debarment by a
                    preponderance of the evidence. 2 CFR 180.850. In this case,                     admitted to
                    falsifying data in several journal articles and manuscripts. Thus, her actions support a cause for
                    debarment under 2 CFR 180.800(b) and (d).


                    Length ofDebarment

                    "Debarment must be for a period commensurate with the seriousness of the causes upon which an
                     individual's debarment is based. 2 CFR 180.865. Generally, a period of debarment should not
                     exceed three years but, where circumstances warrant, a longer period may be imposed. 2 CFR
                     180.865. Having considered the seriousness of her actions, as well as the relevant aggravating
                     and mitigating factors set forth in 2 CPR 180.860, we are proposing debarment for a period of
                     three years.

                    App£al Procedures for Finding of Research Misconduct and Procedures Governing
                    Proposed Debarment


                    Appeal Procedures for Finding ofResearch Misconduct

                    Under NSF's regulations,                    has 30 days after receipt of this letter to submit an
                    appeal of this finding, in writing, to the Director ofthe Foundation. 45 CFR 689.1O(a). Any
                    appeal should be addressed to the Director at the National Science Foundation, 4201 Wilson
                    Boulevard, Arlington, Virginia 22230. Ifwe do not receive her appeal within the 30-dayperiod,
                    the decision on the finding of research misconduct will become final. For
                    infonnation, we are attaching a copy of the applicable regulations.


                    Procedures Governing Proposed Debarment

                    The provisions of2 CFR Sections 180.800 through 180.885 govern debarment procedures and
                    decision-making. Under our regulations,                   has 30 days after receipt of this notice to
                    submit, in person or in writing, or through a representative, infonnation and argument in
                    opposition to this debarment. 2 CFR 180.820. Comments submitted within the 30-day period
                    will receive full consideration and may lead to a revision ofthe recommended disposition. If
                    NSF does not receive a response to this notice within the 30-day period, this debarment will
                    become fmal.
          ~
", ',A   ~,.rl;.




                                                                                                          Page 5
                   Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
                   Foundation, Office ofthe General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
                   Virginia 22230. For                 infonnation, we are attaching a copy ofthe Foundation's
                   regulations on non-procurement debarment and FAR Subpart 9.4.

                   Should you or              have any questions about the foregoing, please contact
                        AssistlUlt General Counsel, at (703) 292-5054 ...




                                                                     Sincerely,



                                                                     Cora B. Marrett
                                                                     Acting Deputy Director



                   Enclosures:
                   Investigative Report
                   Nonprocurement Debarment Regulations
                   FAR Regulations
                   45 CFR Part 689
                        ,
"   ,.;-,~   ..   ~..       ~~#



                                  CONFIDENTIAL                                                                                  CONFIDENTIAL




                                          Na_tional Science Founda.tion
                                          Office of Inspector General




                                                           C.onfidenrial
                                                     Report of Investigation
                                                   C.ase. NU1TIber A~06070031




                                                                         .              .                                                   ,   .
                                   This Confidential Repol;1: of Inv.estigation is the ptopexty: oith!'! NSF OIG and ma.y be disclosed outside
                                        NSF only by OIG under the Freedom of Information and Privacy Acts, 5 U.S.c. §§ 552, 552a.

                                                                                                                         NSF DIG Form 22b (11/06)
CONFIDENTIAL                                                           CONFIDENTIAL


                                    Executive Summary

Allegation:         Data falsification in published research supported by NSF.

OIG Inquiry:        The university completed an inquiry and proposed a settlement between the
                    Subject, the university, and the federal agencies involved. We reviewed the
                    inquiry materials; determined that an investigation was warranted to
                    determine the extent ofthe misconduct before making recommendations to
                    NSF; and referred the investigation to. the university.

University          The university completed an extensive investigation of 16 projects/papers (9
Investigation and   NSF-funded) for which the Subject provided data and analysis as a graduate
Action:             student. Based on its review ofthe evidence and the Subject's admissions,
                    the committee concluded the Subject falsified data appearing in 3 NSF-
                    funded publications and 2 NSF-funded manuscripts (i.e., unpublished).

OIG's                  • 	 The Act: Data falsification in 3 journal articles and 2 manuscripts.
Assessment:            • 	 Intent: The Subject's actions were intentional (purposeful).
                       • 	 Standard of Proof: The preponderance of the evidence supports        a
                           finding of research misconduct.
                       • 	 Significant Departure: The Subject's actions significantly departed.
                           from the accepted practices of the relevant research community.
                       • 	 Pattern: The evidence supports a pattern of misconduct outside of
                           the NSF-funded activities.


OIG                     • 	 Send the SUbject.a letter of reprimand informing her that NSF has
Recommendation:             made a finding of research misconduct; .
                        • 	 Debar the Subject under both her married and maiden names for a
                            period of 5 years;
                        • 	 Require the Subject to certify completion of research ethics training,
                            including the proper handling and reporting of data;
                        • 	 Require the Subject to certify that she has requested a retraction or a .
                            correction to the published work which NSF supported;
                        • 	 For 3 years commencing with the end of the debarment period,
                            require the Subject to certify each time she submits a proposal or
                            report to NSF that the proposal or report does not contain plagiarized,
                            fabricated, or falsified material;
                        • 	 For 3 years commencing with the end ofthe debarment period,
                            require the Subject submit assurances by a responsible official of her
                            employer each time she submits a proposal or report to NSF that the
                            proposal or report does not contain plagiarized, fabricated, or
                            falsified material; and
                        • 	 For a period on years commencing with the end of the debarment
                            period, bar the Subject from serving as a NSF reviewer, advisor, or
                            consultant.                                             '


                                                                                                 1
CONFIDENTIAL                                                                            CONFIDENTIAL


                                                  ~IG's    IOguiry

        The National SCience Foundation (NSF) Office of Inspector General (OIG) received
notification 1 from a universiti (the University) regarding an inquiry it had completed involving
an allegation of data fabrication and/or falsification by one of its graduate students (the
Subject).) The University Inquiry Committee recommended to the Deciding Official 4 that the
University either initiate an investigation or pursue a multi-party settlement agreement involving
the Subject, the University,
                        5
                          and NSF. The recommendation for the settlement agreement was
premised on the Subject's cooperation and admission during the inquiry to one oftwa initial
allegations; 7 however, the Inquiry Committee noted that the Subject did not admit doing all that
was alleged, leaving unresolved the full scope of the falsification or fabrication ofthe data
unknown with respect to any other projects to which she contributed ("16 potentially affected
"projects"".)8,9, Specifically, the Subject admitted during the inquiry to "falsifying or fabricating
data on seven projects."

        We reviewed the inquiry report and determined that significantly more detail was
necessary to assess adequately the full scope of the alleged misconduct, which potentially
encompassed a significant amount of published work and manuscripts in preparation Although
the University told us that the Subject was cooperating fully with and assisting in the
University'S "Re-Analysis and Rectification Plan" to correct the literature, 10 we concluded that
the formal investigation process would be a more appropriate procedure for providing due
process while ensuring evidentiary control and quality, thereby enabling us to provide complete
and thorough recommendations to protect NSF interests. Therefore, we referred the matter to the
University for a formal investigation, II and the University accepted.


                                       The University's Investigation 12

     Under its research misconduct policy, IJ the University appointed an ad hoc investigation
committee (the Committee) consisting of the members of the inquiry committee. 14 The




                                                             oh~
4 The University's deciding official is provost1_ _ _ _
5 The Subject worked on projects funded not only by NSF but also by
                thereby creating mUlti-agency jurisdiction over the allegations in this case.
6 Tab 5.A, The University Inquiry Report, pages UNIV-34 through UNIV-36.
7 The allegations involved Project 1, to which the Subject admitted misconduct, and Project 15, for which the
evidence ultimately did not substantiate misconduct.
sTab 5.A, page UNIV-37.
9 It appears that the University used the term "project" synonymously with "paper" or "manuscript" as the
fundamental unit organizing its analysis. Our analysis uses the term ''project'' similarly in order to avoid confusion
between the University's report and ours.
10 Tab 5.A, page UNIV-38.
11 Tab 2, DIG Referral Letter.
12 Tab 3, The University Investigation Report.
13 Tab 4, The University Research Misconduct Policy.




                                                                                                                         2
CONFIDENTIAL                                                                            CONFIDENTIAL


 Committee relied on the inquiry phase interviews with four people l5 (including the Subject l6 )
 and conducted three additional interviews 17, (including a second interview with the Subject. 18)
 The Committee also relied on a substantial re-analysis of the data "that were certifiably
 unaltered by the [Subject].,,19 In total, the Committee reviewed data supporting 16 projects to
 which the Subject contributed. 20

        The Committee identified nine projects that NSF supported, at least in part, through three
 different awards. 21 Of those nine projects, all of which also involved      funding, the
 Committee found that the Subject had falsified data to achieve the hypothesized results in four
 projects,22 three of which were already published 23 and a fourth which was a manuscript for a
 research article in preparation. 24 Results from two of the pro~ects (both published papers)25
 were incorporated into yet another project-a revIew article 2 for which the Subject's direct
 participation consisted of editing and commenting on drafts. 27 The review article was submitted
 but unpublished at the time ofthe investigation. The coauthors revised the paper and eliminated
 the Subject as a coauthor. The Committee found no misconduct in the remaining four NSF-
 supported projects. 28

   ,     In general, the misconduct found in the NSF-supported projects consisted of altering (i.e.,
 falsifYing)                          in data sets so as to produce the hypothesized result,29 When
 asked by the Committee about specific projects, the Subject admitted to the falsification, at least
 to the extent that she asserted that she could remember which data she had altered. 3o




 14 The University report indicates that we "directed that the University proceed to investigate the matter" (Tab 3,
 page UNIV-8); however, at no time did we direct the University to do so. We offered to refer the investigation to
 the University for investigation, and it accepted. Although we as a matter of practice request the curricula vitae of
 the members of the investigation committee as a preliminary"step in the investigation referral process, we do so in
 order to assess at the outset whether any conflict of interests is present. We at no time during this investigation
 approved the appointment of the members of the committee as suggested by the University report (Tab 3, page
 UNIV-8).
 15 Tabs 6.A-6.D, Interview Transcripts.
 16 Tab 6.C.
,17 Tabs 6.E-6.G.
 18 Tab 6.G.
 19 Tab 3, page UNIV-8.
20




   Tabs 9, 10, 11, and 15 (Projects 3, 4, 5, and 9, respectively).
23 Tabs 9, 10, and 11 (Projects 3, 4, and 5, respectively).
24 Tab 15 (Project 9).
25 Tabs 10 and 15 (Projects 4 and 9, respeCtively).
26 Tab 7 (Project 1).
27 Tab 3, page UNIV-I0.
28 Tabs 8, 12, 13, and 14 (Projects 2, 6, 7, and 8, respectively).
29 Tab 5.F, pages UNIV-56 through UNIV-59.
30 Tab 3, pages UNIV-9 through UNIV-lO.




                                                                                                                         3
             i"
.. i.   ~-        '\.~




                         CONFIDENTIAL                                                                  CONFIDENTIAL

                                   Of the remaining projects (no NSF funding) the Committee reviewed, one of two
                                            3
                         . funded projects ! contained falsified and fabricated data.32 In this project, the Subject admitted      i


                           changing                       data, which a colleague had collected. 33 To cover up the
                           falsification ofthe data, the Subject admitted to enlisting the aid o~ who is a law
                           school graduate and accountant, in fabricating new survey pages (i.e., the raw d
                                subjects to match the data on her spreadsheet. 34 ,35 The Subject arranged fo~o
                           enter the lab by having the lab manager give_access under the guise of retrieving the
                           Subject's computer cables. The Subject directed.                                       .

                                         to print the       (i.e., original data) sheets and told_to go and
                                         pull out the specific participants to match the data and change the
                                         front sheets of the surveys. This involved un-stapling· packets of
                                         raw data, pulling out response sheets, adding new blank sheets,
                                         filling in new values on the sheets, re-stapling the packets, re-filing
                                         the packets, and then taking home the original data.[36]       :

                                               the original survey pages to the lab shortly after fabricating the new
                          pages.     other     -funded project 37 contained discrepancies in the un~ublished data for
                          which the Subject could not remember whether she had made alterations. 8

                                  The Committee also reviewed five unpublished, non-federally-funded projects. The
                          Committee found that one project 39 contained data from two of the published NSF-funded
                          projects 40 described above. The Committee did not conduct a reanalysis of this project"because
                          the paper had not been submitted for publication ... and the work has been discarded.,,41 The
                          Subject also admitted to misconduct in two unpublished projects. 42 The Committee did not find
                          misconduct in the remaining two unpublished projects,43 although it noted that there had been an
                          apparent exchange of data between collaborators involving a mock dataset instead of an actual
                          dataset. 44 In general for the unpublished work, the Committee reasonably assumed data to be
                                                                                                                  45
                          falsified when it had determined that underlying data leading to it had been falsified.


                         31 Tab 17 (Project 11).
                         32 Tab 3, page UNIV-lO.
                         33 Tab 6.C, pages UNIV-125 through 126.
                         34 Tab 3, pages UNIV-.lI through UNIV-12; Tab 5.F, page UNIV-59; and Tab 6.C, pages UNIV-125 through


                                                                            no~ employee or a recipient of NSF grant funds.
                                   University did not request an interview with _ _ We acknowledge that the University could not
                         compel an ~h we know of no circumstance that would have prevented requesting a voluntary
                         interview. _ _ _is not a member ofthe bar in and is not a certified public account
                         36 Tab 3, UNIV-H.
                         37 Tab 16 (Project 10).
                         38 Tab 3, page UNIV-lO.
                         39 Tab 20 (Project 14).
                         40 Tab 3, UNIV-1(), and Tab 5.F, UNIV-58 (noting use of data from Projects 4 and 9).
                         41 Tab 3, UNIV-I0.
                         42 Tab 18 (Project 12) and Tab 19 (Project 13).
                         43 Tab 21 (Project 15); and Tab 22 (project 16).
                         44 Tab 21 (Project 15); and Tab 5.F, page UNIV-59. See also Tab 3, page UNIV-IO.
                         45 Tab 3, page UNlV-9 through UNIV-IO.




                                                                                                                                   4
CONFIDENTIAL                                                           CONFIDENTIAL


    The'Committee's findings are summarized below.

                      NSF                       Other         Publication    Misconduct
        Proiect     funding       funding      funding          Status         found
          1           y'll>          Y            Y           Submitted          y*
    I     2           y47            Y            Y         In preparation
          3           y48            Y            Y            Published         Y
          4           y4~
                                     Y            Y            Published         Y

                                            R=f
          5           y:>u           Y            Y            Published         Y
                      y51

                                                 D
          6                          Y                         Published
          7           y~l.
                                     Y                        Published
          8           y53           Y                          Published
          9           y~4
                                    Y                       In preparation    y
          10                        y.          . Y         In preparation                I

          11                        Y              Y              nla         y           !


          12                                                      nla
          13                                                  M.S. Thesis     Y
          14                                                      nla          §
          15                                       Y              nla
          16                                                      nla
           * Project 1 is a review paper that included falsified data and
           conclusions from Projects 4 and 9. No data analysis was involved.
           § The Committee did not conduct a reanalysis of Project 14 because
           it was unpublished and the data had been discarded. The Committee
           noted that Project 14 contained data from Projects 4 and 9.


    The Committee concluded:

              Based on the evidence it gathered and reviewed, and based on [the
              Subject's] admissions, the Committee finds, by a preponderance of
              th~ evidence, that (a) [the Subject] committed fabrication or
              falsification as defined by applicable regulations; (b) the
              fabrication or falsification constituted a significant departure from
              accepted practices of the relevant research community; (c) [the
              Subject's] acts were committed intentionally, knowingly and [sic]




                                                                                              5
.-
     CONFIDENTIAL                                                                CONFIDENTIAL


                       recklessly, and not merely carelessly; and (d) based on [the
                       Subject's] own admissions, confirmed by the re-analyses, an
                       extensive .pattern of misconduct existed. In addition, the
                       Committee finds that the misconduct had a significant effect on the
                       University and Respondent's collaborators, including but not
                       limited to time and effort devoted by the collaborators, analysts
                       and Committee members to the review of this matter, to the
                       correction, retraction and discarding of papers and manuscripts,
                       and to the re-construction and re-analysis of significant research.
                       However, in view of Respondent's admissions and her cooperation
                       in identifying falsified and fabricated data, the Committee
                       recommends that the Deciding Official seek a three-way agreement
                       among the University, the Federal agencies involved and
                   I   Respondent that would facilitate a rapid conclusion of the case and
                       allow corrective action to be taken as quickly as possible.[55]  .

             The Committee did not ascribe a specific level of intent or discuss the particular evidence
     which led to its conclusion. However as discussed below, the evidence, including the Subject's
     explanation for her motive behind falsifying and fabricating data, supports the Committee's
     conclusion that the Subject's _actions satisfied the intent requirement (i.e., at least reckless) for a
     finding of research misconduct.

            We conclude that the University's investigation was accurate, complete, and conducted
     with reasonable procedures. 56


                 The Subject's Response to the University's Draft Investigation Report

             The Subject reiterated her remorse and stressed her c00peration with the investigation in
     her response to the U .        's Draft      . . Report. 57 The Subject also expressed
                                                         who according to her own testimonyS8
                                                   in a non-NSF          as described
                                             withheld and
                                                 The Committee did not make the suggested
     substitution.




     55  Tab 3, page UNIV-12.
     56  45 C.F.R. 689.9(a).
     57 Tab 3, page UNIV-13.

     58 Tab 6.C, page UNIV-127.
     59- Tab 3, page UNIV-13.




                                                                                                           6
    CONFiDENTIAL                                                                    CONFIDENTIAL
                         \"




                                       OIG's Investigation and Assessment

         " We notified the Subject that we had received the Committee's report and offered her the
    opportunity to respond with any additional comments. 65 She responded through her attorney,
    reiterating her concerns as expressed in her response to the University draft report. 66

            Subsequently, we wrote to the Subject asking for her response to additional questions to
    better understand her training in the responsible conductofresearch, het present deree status,
    and her employment status both during and following the university investigation. 6 She '
    responded by providing answers to the majority of questions asked; however, she declined to
    provide information about her current employer, citing concerns about the possible release of
    information from this case to her present employer. 68 Her response confirmed that she had
    received research ethics training as part of her course work at institutions she attended
    previously. Furthermore while earning a M.A. degree at another institution, she participated on

    60 Tab 23,
    61 Tab 27, page 010.16.
    62 Tabs 7, 9, 10, 11, 15, and 17 (projects 1,3,.4,5,9, and 11, respectively).
    63 Tab 23, pages UNIV·1567 through UNIV-1568; and Tab 25, page 010-9.
    64 Tab 25, page 010-9; and Tab 29, page 010-28.
    65 Tab 24.
    66 Tab 25.
    67 Tab 26.
-   68 Tab 27, pages 010-16 and 010-17.




                                                                                                       7
                                                                                        r



CONFIDENTIAL                                                             CONFIDENTIAL


the honor court. 69 She admitted that prior to the allegations she had accepted an assistant
professor position at a prominent institution and had included the publications with the falsified
data on her curriculum vita in her application. 7o She "rescinded" the position in January2006,
after the allegations surfaced. 71


                     Subject began using her married name, instead    her maiden name as she did
~e have also learned that the Subject is currently~
_ _ _ _in the private sector for a company (the Company) that receives federal
contracts.

        A finding of misconduct requires: (1) there be a Significant departure from accepted,
practices of the relevant research community, (2) the research misconduct be committed
intentionally, or kliowingly, or recklessly, and (3) the allegation be proven by a preponderance of
the evidence. 74

                                                  The Act

        The Subject admitted to falsifYing data in five projects (i.e., 3 publications and
2 manuscripts) under NSF funding. The data at issue involved the Subject's coded survey data
and not the raw dataitse~f, although some data in a non-NSF project was fabricated in an attempt
to cover-up the falsification. Data from two of those projects were incorporated in a review
paper that the coauthors corrected prior to submission. The Committee's reanalysis of those
projects confirmed that the data were falsified to support hypotheses and thus did not support the
reported results. Therefore, we conclude that the Subject falsified data reported in the four
publications, some of which were incorporated into the review article mant,lscript on which she
was a coauthor at the time it was submitted for publication. Data falsification to support the
desired results is by its nature a significant departure from accepted practices in the general
research community as well as the in the Subject's discipline.



       The Subject intentionally (i.e., purposefuUy) falsified the data reported in three published
papers and one manuscript as well as data incorporated into one review article, all produced with
NSF funding. Neither the Committee report nor the                 discusses any ofthe evidence
supporting intent, instead relying on the inference of intent from the Subject's admissions. The
Committee found that the Subject acted "intentionally, knowingly, and recklessly, and not

69 Tab 27, pages 010-15 and 010-16.
70 Tab 27, page 010-16.
71 Tab 27, page 010-16.
72 Tab 28, pages 010-20 through 010-26.
73 Tab 28, pages 010-27 through 010-28. The contractor
$1.6 million in FY 2007 and has reCI~IVfld
The




                                                                                                     8
CONFIDENTIAL                                                                CONFIDENTIAL


 merely carelessly" without more specific characterization as to the Subject's intent. 75 We
,conclude that the evidentiary record supports a conclusion of intent sufficient for a finding of
 research misconduct (i.e., at least reckless) and best characterized as intentional (i.e.,
                                                                                                        (
 purposeful). The Subject's own admissions and justification for her actions sqpport such a
 conclusion:

                            Just/to give you a sense 'of what was going on with me for
                   the last four or five years is that I have just be~n under such
                                                 with -- the main motivation more than




                           And at that time, was just the only way you ever go to a
                   good school is if you have publications. The only way anyone
                   respects you is you have publications.
                   ,      And that is what was driving it. And hearing all this
                   negative stuffP6)                    ,

         Therefore, we conclude that the evidence demonstrates
needed publications to move from the University
falsified the data in the NSF-funded work with the purposeful intent to achieve that result.

                                            Standard ofProof

       The preponderance of the evidence demonstrates that the Subject intentionally (i.e.,
purposefully) falsified data and conclusions reported in 3 published papers and 2 manuscripts
under NSF funding. Therefore, we conclude that the Subject has committed research
misconduct.

75   Tab 3, page ONIV-I2.
76   Tab 6.C, page ONIV-119.


                                                                                                    9
 CONFIDENTIAL                                                                           CONFIDENTIAL



                                      OIG's Recommended Disposition

         When deciding what appropriate action to take upon a finding of misconduct, NSF must
. consider:
               (1) How serious the misconduct was; (2) The degree to which the
               misconduct was knowing, intentional, or reckless; (3) Whether it
               was an isolated '(went or part ofa pattern; (4) Whether it had a
               significant impact on the research record, research subjects, other
               researchers, institutions or the public welfare; and (5) Other
               relevant circumstances. 77

                                                     Seriousness

          Consumers ofthe research results produced under NSF awards rely on the truthful and
 accurate reporting of data as well as the resulting conclusions. In this case, the Subject "altered"
 data (i.e., falsified) to conform to her hypothesized results and did so purposefully in five
 projects under NSF support rather than draw supportable insights from the actual data. A portion
 of this work completed under an NSF Small Grant for Exploratory Research (SGER)78 involved
 data collected and analyzed in response to a unique historical event of national consequence. 79
 Seven ofthe nine NSF-funded projects, including all five projects in which the Subject's
 falsified data appeared, cited the SGER award as providing support. Given the subject matter of
 the research under the SGER award, the Subject's actions are particularly serious.

          The Subject's admissions came only after her mentors discovered inqications of research
 misconduct and after she had accepted a position as an Assistant Professor at a prominent
 institution. 8o She rescinded her acceptance of the position in January 2006. 81 As the Subject
 said in her explanation to the Committee, "the only way you ever go to a good school is if you '
 have publications. The only way ariyone respects you is you have publications.,,82 The Subject
 cited the pUblications containing the falsified data and results in her curriculum vita, which she
 submitted to that institution when she applied for the Assistant Professor position. 83

          The Subject falsified data and results as a graduate student under the mentorship of
, faculty members of the University. Much of the original raw data for the NSF-supported studies
  appears to be unaltered because it was either archived at another location or retained as original


/7745 C.F.R. 689.3(b).
 18The NSF Grant Proposal Guide (June 2001) describes the SGER proposals as: "Proposals for small-scale,
 exploratory, high-risk research in the fields of science, engineering and education normally supported by NSF may
 be submitted to individual programs. Such research is characterized as: ... having a severe urgency with regard to
 availability of, or access to data, facilities or specialized equipment, including quick-response research on natural
 disasters and similar                              '"


    Tab27, page OIG-16.
 81 Tab 27, page OIG-16.
 82 Tab 6.C, page UNIV-119.
 83 Tab 27, page OIG-16.




                                                                                                                     10
    CONFIDENTIAL                                                                           CONFIDENTIAL


    hardcopies by the Subject's colleagues. 84 ,85 Yet th~ pervasiveness ofthe Subject's actions
    required substantial effort, particularly by her colleagues and mentors, in repeating analyses and
    correcting the published literature rather than moving the science forward. Because the majority
    of the raw data had been collected by colleagues and archived elsewhere, the University's "Re-
    Analysis and Rectification Plan" would likely have identified the falsified data and conclusions.
    The Subject's involvement in the process may have accelerated the process, but it does not
    appear to have been essential to the identification of the falsified data.

                              Degree to which the Act was Intentional (purposeful)

             The evidence supports that the Subject acted with purposeful intent to falsify data and
    conclusions over multiple projects funded by multiple sources to achieve a specific goal. In fact,
    she accepted an Assistant Professor position at a prominent institution, a position she was offered
    after including the publications containing the falsifications on her curriculum vita in her
    application materials. 86 Thus, her goal came to fruition (i.e.; a faculty position at a prominent
    institution) and was spoiled only when one of her coauthors raised concerns about data in a
    single project. Although the Subject portrays her actions as being in the interest o~
    her falsification was calculated to achieve the specific end result of obtaining her Ph.D. and
    securing ~r herself. Her intent to achieve her goal is further exacerbated by her
    enlisting~aid in steps to conceal her falsification in                        funded project by
    fabricating the survey pages described above.

             It is incomprehensible that the Subject did, riot fully appreciate the gravity of her actions
    at the time she falsified the data and results. She has had instruction in research ethics as part of
    courses in her academic training as well as been a teaching assistant in such courses. 87 She was
    also a member of the honor court at an institution from which she received an M.A. prior to
    attending the University.88 Thus, we conclude that evidence demonstrates that the Subject's
    intent was particularly egregious with a definitive p~rpose in mind.

                                                   Pattern ofBehavior
                                                   \

            The evidence demonstrates that the Subject's falsification and/or fabrication were not
    limited to the 5 NSF-supported publications/manuscripts. As described above,         -funded work
    as well as the work funded through non-federal sources involved data which the Subject falsified
    and/or fabricated. Thus, the evidence supports an extensive pattern of behavior on the part of the
    Subject during her graduate career at the University.




    84 Tab 5.F, page UNIV-56 through UNIV-59.
    8S The same cannot be said for at least one project (Project 12) in which the data "cannot be verified because the data
    were collected directly onto a computer and an immediate backup copy of the data file' was not made." Tab 5.A,
    page UNIV-37.                                            . '
.   86 Tab 27, page OIG-16.

    87 Tab 27, pagesOIG-13 through OIG-15 and O1G-19.
    88 Tab 27, page OIG-16,




                                                                                                                        11
CONFIDENTIAL 	                                                           CONFIDENTIAL


                                    Impact on the Research Record

        As a result of the Subject's actions, 3 published articles citing NSF support required
retraction. Other work submitted for publication required revision to remove falsified material
prior to publication.

                                           Other Concerns

         The Subject has asserted thanhe no longer works in academia and that         has
confirmed that her present employer does not receive       fundin~. 89 She has also asserted that
neither she nor her employer currently receive any NSF funding. 9 The Subject has expressed
remorse for her actions throughout the investigation and participated in the reanalysis of the
data. 91 However, when asked to provide her current employment information to us so that we
could verify those statements, she declined. She indicated that she would provide the
information only with an assurance that it would only be used to determine whether her
employer received NSF funding and that the name of her employer would not be released in
response to a FOIA request.92. We did not provide such an assurance. In determining what
recommendations to make to NSF, particularly with regard to debarment, it was essential for us
to determine her employer's relationship with the federal government, either as a contractor or as
a grantee. Thus, we continued our investigation utilizing other resources.

        According to our independent investigation, the Subject is
           a federal contractor which                  other .



                                     The use of her married name as an employee of the
Company, rather than the name associated with the                         / 4 obscures her
connection to the research misconduct findings made by the University and OR!. Such behavior
on the part of the Subject poses a continued risk to the federal government through its contractual
relationships with the Company.

                                          Recommendations

        Based on the evidence, 010 recommends that NSF:

     • 	 Send the Subject a lettet;, of reprimand informing her that NSF has made a finding of
         research misconduct;                                               .



89 Tab 21, page OIG-16.
90 Tab 21, pages OIG-13 and OIG-16.
91 Tab 3, page UNIV-12.
92 Tab 21, pages OIG-13 and OIG-16.
93 Tab 28, pages OIG-20 through OIG-28.
94




                                                                                                  12
    CONFIDENTIAL 	                                                                         CONFIDENTIAL


         • 	 Debar the Subject under both her married andmaiden names 9S for a period of 5 years
               from the date of NSF's finding of research misconduct;             c




         •   	 Require the Subject to certify to the Associate Inspector General for Investigations
               (AlGI) completion of r~search ethics training, including the proper handling and
               repoI1ing of data, before applying for NSF funding or receiving NSF funding as an
               employee.of any awardee institution;96
         •   	 Require the Subject to certify to the AlGI that she has re~uested a retraction or a
               correction to the published work which NSF supported;9
         •   	 For 3 years commencing with the end of the debarment period, require the Subject tq
               certify to the AlGI each time she submits a proposal or report to NSF that the proposal or
               report does not contain plagiarized, fabricated, or falsified material;98                  .
         •   	 For  3 years commencing    with  the end of the debarment  period, require the Subject submit
               to the AlGI assurances by a responsible official of her employer each time she submi~s a
               proposal or report to NSF that the proposal or report does not contain plagiarized,
               fabricated, or falsified material;99 and
         •   	 a period 00 years commencing with the end ofthe debarment period, bar the
               For
               Subject from serving as a NSF reviewer, advisor, or consultant.


                      The Subject's Response to OIG's Draft Investigation Report lOO

             The Subject raised some factual concerns, which we addressed by providing minor
     clarification in the text above. She also specifically requested that bIG not identify her,.
    _           or the Company by name in the final report, citing privacy concerns. 101 Consistent
    with our practice of providing NSF with the factual basis and context to support our
     recommendations, we have retained names in the final report and attachments, which we treat as
     investigative records under the Freedom ofInformation Act (FOIA), the Privacy Act, and NSF·
     regulations and policies. 102, 103 Providing a subject's name to NSF is essen.tial so that the agency
     can take action. In the absence of the Subject's identity no action could be taken.

            The Subject asserts that we (OIG) have rejected her offer of a settlement agreement. We
    neither endorse nor advocate a settlement agreement as a resolution to this matter. The NSF
    Office ofthe Director (OD) received the allegation, including the University's recommendation
    for a settlement agreement, and forwarded it to us to conduct an investigation under NSF
    regulations resulting in our recommendations.

    9S
    96 Consistent with Group I actions, 45 CFR 689.3(a)(l).
    97 A Group II action, 45 CFR 689.3(a)(2)(iii).
    98 Consistent with Group I actions, 45 CFR 689.3(a)(1).
\   99 A Group I action, 45 CFR 689.3(a)(l )(iii).
    100 Tab 30.
    101 Tab 30, pages OIG-37 through OIG-38.                                       .
    102 45 ~ 612 and 613.                                                .
    103 The_identity is provided to NSF in this report just as is the names of the University Deciding Official,
    PIs and CoPls on the relevant awards, etc. are provided. It is .also customary practice in our reports to include names
    of,persons relevant to the investigation. The redaction of such information under the strictures ofFOIA and the
    Privacy Act are also customary practice in our office when releasing reports after the case has closed.


                                                                                                                        13
                                                                                           --
CONFIDENTIAL                                                                          CONFIDENTIAL


                 NSF has th~ discretion to evaluate the evidence in making its own detemination.
The Subject asserts that our recommendations are out of proportion based on the relative amount
                                             104
of funding she received from NSF and             However, there is an inherent problem in
assessing the seriousness of her actions based only on the amount of money paid directly to her
as a salary/ stipend. Such an approach would negate the significance of NSF programs such as
SGER awards or other special awards and the totality of the circumstances involved in this case.

        The Subject expresses concern regarding our inclusion of information related to
Project 11,105 which involved        funding but not NSF funding. Our report addresses
Project 11 as part of the regulatory directive that NSF should consider whether the acts
committed under NSF funding are "an isolated event or' part of a pattern," 106 whether or not
NSF-funded it, in determining its final action. 107 It is the Subject's extreme behavior that is at
the root of our concern with respect to Project 11,                       of her            that her
actions were motivated primarily by her concern                                                   08.
which stand in contrast to her involvement                       an active participant in the
fabrication. 109 The Subject requests that we highlight her testimony of altruistic motivations
while at the same time requests that we remove all reference to her directing_in attempting to
conceal the fabrication in Project 11.

        The Subject as~erts that our report "dismisses both the University's and        findings as
to the extent and value of Respondent's cooperation." I 10 We acknowledge in this report the
Subject's cooperation in several places. We also balance it against the immense amount of effort
her mentors and colleagues invested in the reanalysis ,of the 16 projects reviewed. As noted
above, the statement "we'd never have been able to figure out what was falsified" implies that
the Subject's assistance was essential to determining the breadth of the misconduct. However,
we conclude it is likely that the Subject's assistance was not essential. The Subject concedes in
her comments, and we agree, that her admissions and participation "made this process much.
simpler and more efficient for" the parties involved. II Our recommendations reflect this and
our consideration of all aspects ofthe Subject's cooperation.

        Finally, the Subject asserts that our recommepdation for a five-year debarment would
effectively debar her for eight years. We are unaware of any government-wide exclusion
currently applicable to the Subject. The Subject is presently eligible to apply for, receive, and
work under federal grants and contracts with the exception ofthe
                      After consideration of the Subject's comments, we have not altered our
recommendation.

                         I

104 However, the amounts reported by the University do not reflect travel funds, materials, supplies, and the wasted
effort of her colleagues paid under those NSF funds. For example, the PI ofthe NSF SOER award requested
supplemental travel funds totalin~(not included in the above total) specifically for the Subject to travel
and present results at a conference in Europe.
105 Tab 30, pages 010-38 through 010-40.            .
106 45 C.F.R. 689.3(b)(3).

107 Pattern is not used to show that the act of research misconduct itself occurred.
108 Tab 6.C, page VNIV-119.
109 Tab 6.C, pages VNIV-125 through VNIV-128.
110 Tab 30, page 010-41.
III Tab 30, page 010-41.




                                                                                                                   14
